March 5, 2012

TO:             Marilyn Tavenner
                Acting Administrator
                Centers for Medicare & Medicaid Services


FROM:           /Gloria L. Jarmon/
                Deputy Inspector General for Audit Services


SUBJECT:        Southern California Renal Disease Council, Inc., Claimed Unallowable and
                Unsupported Costs Under Medicare Contract Number 500-03-NW18
                (A-09-10-02045)


Attached, for your information, is an advance copy of our final report on costs claimed by
Southern California Renal Disease Council, Inc. (Council), to administer the end-stage renal
disease Network Organization Program as a Federal contractor. We will issue this report to the
Council within 5 business days. The Centers for Medicare & Medicaid Services, Office of
Acquisition and Grants Management, requested that we conduct this contract closeout audit.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or
Lori A. Ahlstrand, Regional Inspector General for Audit Services, Region IX, at (415) 437-8360
or through email at Lori.Ahlstrand@oig.hhs.gov. Please refer to report number A-09-10-02045.


Attachment
                                                             O FFICE OF A UDIT S ERVICES , R EGION IX
                                                                        90 - 7 T H S TREET, S UITE 3-650
                                                                         S AN F RANCISCO , CA 94103
March 7, 2012

Report Number: A-09-10-02045

Ms. Harriet L. Edwards
Executive Director
Southern California Renal Disease Council, Inc.
6255 Sunset Boulevard, Suite 2211
Los Angeles, CA 90028

Dear Ms. Edwards:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Southern California Renal Disease Council, Inc., Claimed
Unallowable and Unsupported Costs Under Medicare Contract Number 500-03-NW18. We will
forward a copy of this report to the HHS action official noted on the following page for review
and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Jessica Kim, Audit Manager, at (323) 261-7218, extension 702, or through email at
Yun.Kim@oig.hhs.gov. Please refer to report number A-09-10-02045 in all correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Harriet L. Edwards


Direct Reply to HHS Action Official:

Mr. Daniel F. Kane
Director
Office of Acquisition and Grants Management
Centers for Medicare & Medicaid Services
Mail Stop C2-21-15
7500 Security Boulevard
Baltimore, MD 21244-1850
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  SOUTHERN CALIFORNIA RENAL
 DISEASE COUNCIL, INC., CLAIMED
UNALLOWABLE AND UNSUPPORTED
COSTS UNDER MEDICARE CONTRACT
     NUMBER 500-03-NW18




                        Daniel R. Levinson
                         Inspector General

                           March 2012
                          A-09-10-02045
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Social Security Amendments of 1972, P.L. No. 92-603, extended Medicare coverage to
individuals with end-stage renal disease (ESRD) who require dialysis or kidney transplantation.
The ESRD Amendments of 1978, P.L. No. 95-292, authorized the formation of ESRD network
areas and the establishment of the Network Organization Program (program) to ensure the
effective and efficient administration of program benefits.

The Centers for Medicare & Medicaid Services (CMS) contracts with 18 ESRD Network
Organizations (network) to administer the program. According to CMS’s Medicare ESRD
Network Organizations Manual, the networks are responsible for “conducting activities in the
areas of quality improvement, community information and resources, administration, and
information management.”

Southern California Renal Disease Council, Inc. (Council), a nonprofit organization, is one of the
18 networks. The Council administers the program for an area covering 13 California counties.
As a nonprofit organization that was awarded a Federal contract, the Council must follow the
cost principles in the Office of Management and Budget Circular A-122.

We reviewed $2,623,686 of the $2,749,010 that the Council claimed under Medicare contract
number 500-03-NW18, which is a cost-reimbursable contract for the period July 1, 2003,
through June 30, 2006. We did not review fixed fees of $125,324.

CMS requested that we conduct this contract closeout audit. The Council used provisional rates
based on estimated costs when calculating fringe benefits and indirect costs that it claimed for
reimbursement. CMS asked us to calculate the Council’s fringe benefit and indirect cost rates
using actual costs. CMS might use those rates when negotiating and settling with the Council
during the contract closing process.

OBJECTIVES

Our objectives were to (1) determine whether the costs that the Council claimed were allowable
under the terms of the contract and pursuant to applicable Federal regulations and (2) calculate
the fringe benefit and indirect cost rates based on actual costs.

SUMMARY OF FINDINGS

Of the $2,623,686 of costs we reviewed, $352,262 was allowable under the terms of the contract
and pursuant to applicable Federal regulations. The remaining $2,271,424 consisted of $19,996
in travel costs and other direct costs that we determined were unallowable and $2,251,428 that
we set aside for CMS resolution. The $2,251,428 consisted of (1) costs for which the Council
did not maintain supporting documentation for review and (2) the difference between fringe
benefits that the Council claimed using provisional rates based on estimated costs and fringe
benefits that we calculated using rates based on actual costs. The Council claimed unallowable


                                                i
or unsupported costs because it did not have adequate controls to account for costs claimed under
Federal contracts.

We calculated fringe benefit and indirect cost rates based on actual costs.

RECOMMENDATIONS

We recommend that the Council:

   •   refund to the Federal Government $19,996 for unallowable travel and other direct costs,

   •   work with CMS to determine the allowability of $2,251,428 that we set aside and refund
       to the Federal Government any amount that is determined to be unallowable, and

   •   strengthen its controls to account for costs claimed under Federal contracts.

AUDITEE COMMENTS

In its written comments on our draft report, the Council concurred with our first and second
recommendations and provided information on actions that it had taken or planned to take to
address the third recommendation. The Council’s comments are included in their entirety as
Appendix B.




                                                 ii
                                                   TABLE OF CONTENTS

                                                                                                                                Page
INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              End-Stage Renal Disease Network Organization Program ...........................1
              Southern California Renal Disease Council, Inc. ..........................................1

          OBJECTIVES, SCOPE, AND METHODOLOGY ...................................................2
               Objectives ......................................................................................................2
               Scope ..............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATIONS ......................................................................3

          SALARIES AND WAGES........................................................................................4

          FRINGE BENEFITS .................................................................................................4

          INDIRECT COSTS ...................................................................................................6

          CONSULTANTS .......................................................................................................7

          TRAVEL ....................................................................................................................7

          OTHER DIRECT COSTS .........................................................................................8

          LACK OF ADEQUATE CONTROLS ......................................................................9

          RECOMMENDATIONS ...........................................................................................9

          AUDITEE COMMENTS...........................................................................................9

OTHER MATTERS ............................................................................................................9

          REQUIRED ANNUAL SINGLE AUDIT .................................................................9

          PROCUREMENT POLICIES AND PROCEDURES ..............................................10

APPENDIXES

          A: SCHEDULE OF COSTS CLAIMED AND RESULTS OF AUDIT
             FOR THE PERIOD JULY 1, 2003, THROUGH JUNE 30, 2006

          B: AUDITEE COMMENTS


                                                                     iii
                                             INTRODUCTION

BACKGROUND

End-Stage Renal Disease Network Organization Program

The Social Security Amendments of 1972, P.L. No. 92-603, extended Medicare coverage to
individuals with end-stage renal disease (ESRD) who require dialysis or kidney transplantation.
The ESRD Amendments of 1978, P.L. No. 95-292, authorized the formation of ESRD network
areas and the establishment of the Network Organization Program (program), consistent with
criteria that the Secretary of Health and Human Services determined would ensure the effective
and efficient administration of program benefits.

The Centers for Medicare & Medicaid Services (CMS) contracts with 18 ESRD Network
Organizations (network) to administer the program for each State, each territory, and the District
of Columbia. According to CMS’s Medicare ESRD Network Organizations Manual, the
networks are responsible for “conducting activities in the areas of quality improvement,
community information and resources, administration, and information management.” The
networks work with consumers, ESRD facilities, and other providers of ESRD services to refine
care delivery systems to ensure that ESRD patients get the right care at the right time.

Southern California Renal Disease Council, Inc.

Southern California Renal Disease Council, Inc. (Council), a nonprofit organization, is one of the
18 networks that serves as a Federal contractor to administer the program. The Council’s area
covers 13 California counties from the Mexico and Arizona/Nevada borders to the central
California coastal area and inland. There are 297 member dialysis facilities and 17 renal
transplant centers in the area that provide treatment to more than 30,000 dialysis patients and
12,000 transplant recipients.

Under Medicare contract number 500-03-NW18, which is a cost-reimbursable contract, the
Council claimed $2,749,010 for administering the program. Of this amount, $490,609 was for
fringe benefits and $831,670 was for indirect costs that the Council claimed using provisional
rates based on estimated costs. The contract states: “The purpose of this contract is to satisfy the
requirements in [Federal directives] ... [for] monitoring, improving, and maintaining the quality
of care provided to patients with ESRD.” The contract was for the period July 1, 2003, through
June 30, 2006. 1 During this period, the Council’s primary sources of revenue were two CMS
contracts, including the cost-reimbursable contract to administer the program. 2 In this report, we
refer to contract number 500-03-NW18 as “the contract.”


1
 The Council had another cost-reimbursable contract with CMS to administer the program for the period
July 1, 2006, through September 29, 2010. We will issue a separate report for that contract (A-09-11-02044). As of
September 30, 2010, CMS had awarded the Council a fixed-price contract.
2
  The Council had another cost-reimbursable contract with CMS to provide centralized support for the program for
the period September 30, 2002, through September 28, 2006. We will issue a separate report for that contract
(A-09-11-02005).


                                                        1
The contract required the Council to comply with Office of Management and Budget (OMB)
Circular A-122, Cost Principles for Non-Profit Organizations, and applicable sections of the
Federal Acquisition Regulation (FAR). In addition, the contract stated that a contract closeout
audit would be performed to determine whether the Council complied with the contract, OMB
Circular A-122’s cost principles for nonprofit organizations receiving Federal awards, the FAR,
and other relevant guidelines.

CMS requested that we conduct this contract closeout audit. FAR § 52.216-7 requires CMS to
negotiate and settle with the Council the total claimed costs, including the final fringe benefits
and indirect costs. The Council used provisional rates based on estimated costs to calculate
fringe benefits and indirect costs. CMS asked us to calculate the Council’s fringe benefit and
indirect cost rates using actual costs. CMS might use those rates during the contract closing
process.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to (1) determine whether the costs that the Council claimed were allowable
under the terms of the contract and pursuant to applicable Federal regulations and (2) calculate
the fringe benefit and indirect cost rates based on actual costs.

Scope

We reviewed $2,623,686 of the $2,749,010 that the Council claimed under contract number
500-03-NW18 for the period July 1, 2003, through June 30, 2006. We did not review fixed fees
of $125,324.

We did not conduct a full-scope audit addressing the Council’s performance. Also, we did not
review the overall internal control structure of the Council. We limited our review of the
Council’s internal controls to those that were significant to the objectives of our audit.

We conducted our audit from October 2010 to May 2011 and performed fieldwork at the
Council’s office in Los Angeles, California.

Methodology

To accomplish our objectives, we:

    •   reviewed applicable Federal laws and regulations;

    •   reviewed the terms of the contract and modifications that CMS made;

    •   reviewed minutes of board of directors’ meetings;

    •   reviewed a CMS onsite evaluation report of the Council;


                                                 2
     •   reviewed the Council’s policies and procedures on the allocation of costs, property
         management, payroll, and travel;

     •   interviewed Council officials to gain an understanding of the Council’s accounting
         procedures;

     •   reviewed the Council’s audited financial statements for the periods July 1, 2003, through
         June 30, 2004; July 1, 2004, through June 30, 2005; and July 1, 2005, through
         June 30, 2006;

     •   reconciled the expenses recorded in the Council’s general ledger with expenses claimed
         under the contract;

     •   reconciled the claimed costs for salaries and wages with the Council’s payroll
         distribution records;

     •   analyzed the general ledger to identify large, unusual, and/or recurring transactions and
         judgmentally selected transactions for claimed costs (direct and indirect costs and fringe
         benefits) to determine their allowability; 3 and

     •   calculated the fringe benefit and indirect cost rates for each contract year based on the
         actual costs recorded in the general ledger and the payroll distribution records.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                              FINDINGS AND RECOMMENDATIONS

Of the $2,623,686 of costs we reviewed, $352,262 was allowable under the terms of the contract
and pursuant to applicable Federal regulations. The remaining $2,271,424 consisted of $19,996
in travel costs and other direct costs that we determined were unallowable and $2,251,428 that
we set aside for CMS resolution. The $2,251,428 consisted of (1) costs for which the Council
did not maintain supporting documentation for review and (2) the difference between fringe
benefits that the Council claimed using provisional rates based on estimated costs and fringe
benefits that we calculated using rates based on actual costs. The Council claimed unallowable
or unsupported costs because it did not have adequate controls to account for costs claimed under
Federal contracts. See Appendix A for a schedule of the costs claimed by the Council and the
results of our audit, i.e., allowable, unallowable, and set-aside amounts.



3
  When errors were identified for a particular element of cost from the judgmentally selected transactions, we
expanded our review to determine the extent of the errors. We determined that the number, dollar amounts, and
types of transactions selected were sufficient based on the adequacy of supporting documentation.


                                                        3
We calculated fringe benefit and indirect cost rates based on actual costs. See Tables 1 and 2 for
the provisional fringe benefit and indirect cost rates that the Council used and our revised rates.

SALARIES AND WAGES

OMB Circular A-122, Attachment B, subparagraph 8.m, states:

        (1) Charges to awards for salaries and wages, whether treated as direct costs or
        indirect costs, will be based on documented payrolls approved by a responsible
        official(s) of the organization. The distribution of salaries and wages to awards
        must be supported by personnel activity reports ….

        (2) Reports reflecting the distribution of activity of each employee must be
        maintained for all staff members (professionals and nonprofessionals) whose
        compensation is charged, in whole or in part, directly to awards. In addition, in
        order to support the allocation of indirect costs, such reports must also be
        maintained for other employees whose work involves two or more functions or
        activities if a distribution of their compensation between such functions or
        activities is needed in the determination of the organization’s indirect cost
        rate(s) ….

Of the $1,070,573 claimed for salaries and wages, $90,336 was allowable. 4 We set aside the
remaining $980,237 for CMS resolution because the Council did not maintain for review
supporting documentation, such as personnel activity reports that reflected the distribution of
activity for each employee. Based on our review of the Council’s payroll records, we were able
to determine that the Council incurred these costs for salaries and wages. However, without
personnel activity reports, we could not determine the amount of salaries and wages allocable to
the contract.

FRINGE BENEFITS

OMB Circular A-122, Attachment B, subparagraph 8.g.(2), states that fringe benefits can be
treated as direct or indirect costs. Further, Attachment A, subparagraph C.1., states: “Indirect
costs are those that have been incurred for common or joint objectives and cannot be readily
identified with a particular final cost objective.”

FAR § 52.216-7(b)(1) states:

        For the purpose of reimbursing allowable costs … the term “costs” includes
        only—(i) Those recorded costs that, at the time of the request for reimbursement,
        the Contractor has paid by cash, check, or other form of actual payment for items
        or services purchased directly for the contract; (ii) When the Contractor is not
        delinquent in paying costs of contract performance in the ordinary course of


4
 The $90,336 of allowable salaries and wages was for three employees for which the Council maintained supporting
documentation, such as payroll distribution records and personnel activity reports.


                                                       4
           business, costs incurred, but not necessarily paid, for— … (F) Properly allocable
           and allowable indirect costs ….

Of the $490,609 claimed for fringe benefits, 5 $34,819 was allowable. 6 We set aside for CMS
resolution the remaining $455,790, consisting of:

       •   $372,609 that was related to the $980,237 in unsupported salaries and wages and

       •   $83,181 that was the difference between the fringe benefits that the Council claimed
           using provisional rates based on estimated costs and the fringe benefits that we calculated
           using rates based on actual costs.

Table 1 illustrates the fringe benefit rates that the Council used to claim fringe benefits, the
fringe benefits claimed by the Council, our revised rates based on actual costs, and the fringe
benefits calculated by applying the revised rates to the salaries and wages claimed by the
Council.

                                    Table 1: Fringe Benefit Rates and Costs


                                                     Costs Claimed                               Costs Calculated
                             Council Rate                                  Revised Rate
Contract Year                                          Using the                                    Using the
                             (Percentage)                                  (Percentage)
                                                     Council Rate                                 Revised Rate


      7/1/2003–
                                  44.97                  $178,425               40.69                 $161,444
      6/30/2004


      7/1/2004–
                                  46.95                   154,588               38.24                  125,910
      6/30/2005


      7/1/2005–
                                  45.74                   157,596               34.85                  120,074
      6/30/2006




5
    The Council treated the fringe benefits as indirect costs.
6
  The $34,819 of allowable fringe benefits was calculated by applying the revised fringe benefit rates (discussed
later in this section) to the allowable salaries and wages discussed in the previous section.


                                                                 5
INDIRECT COSTS

OMB Circular A-122, Attachment A, subparagraph E.1.d., states: “Final rate means an indirect
cost rate applicable to a specified past period which is based on the actual costs of the period. A
final rate is not subject to adjustment.”

FAR § 52.216-7(d)(2) states: “(i) The Contractor shall submit an adequate final indirect cost rate
proposal to the Contracting Officer … and auditor …. The Contractor shall support its proposal
with adequate supporting data. (ii) The proposed rates shall be based on the Contractor’s actual
cost experience for that period.” Further, FAR § 52.216-7(g) states: “At any time or times
before final payment, the Contracting Officer may have the Contractor’s invoices or vouchers
and statements of cost audited.”

Of the $831,670 claimed for indirect costs, 7 $85,842 was allowable. 8 We set aside the remaining
$745,828 for CMS resolution because it related to the $980,237 in unsupported salaries and
wages and $372,609 of fringe benefits applicable to the unsupported salaries and wages. 9

Table 2 illustrates the indirect cost rates that the Council used to claim indirect costs, the indirect
costs claimed by the Council, our revised rates based on actual costs, and the indirect costs
calculated by applying the revised rates to the salaries and wages claimed by the Council and the
applicable fringe benefits.




7
  The Council claimed the indirect costs by using provisional rates calculated as a ratio of the indirect cost pool (i.e.,
numerator) and the base (i.e., denominator). The indirect cost pool included estimated total facilities and
administration costs, and the base included estimated total salaries and wages plus fringe benefits. We revised the
indirect cost rates using actual costs.
8
  The $85,842 of allowable indirect costs was calculated by applying the revised indirect cost rates (discussed later
in this section) to the allowable salaries and wages and fringe benefits discussed in previous sections.

9
  The amount of set-aside indirect costs was limited to the difference between the amounts of the claimed and
allowable indirect costs, because the sum of allowable and set-aside indirect costs calculated based on our revised
indirect cost rates was greater than the claimed indirect costs. There were no indirect costs applicable to the $83,131
of set-aside fringe benefits discussed in the previous section because this amount was not included in the calculation
of our revised rates.


                                                            6
                       Table 2: Indirect Cost Rates and Indirect Costs


                                          Costs Claimed                           Costs Calculated
                     Council Rate                              Revised Rate
Contract Year                               Using the                                Using the
                     (Percentage)                              (Percentage)
                                          Council Rate                             Revised Rate


  7/1/2003–
                          53.23              $306,174               64.77              $361,552
  6/30/2004


  7/1/2004–
                          52.68              254,892                76.65              348,889
  6/30/2005


  7/1/2005–
                          53.89              270,604                69.77              324,166
  6/30/2006


CONSULTANTS

OMB Circular A-122, Attachment A, subparagraph A.2., states that to be allowable under an
award, costs must be reasonable for the performance of the award and adequately documented.
Further, Attachment B, subparagraph 37(b), lists factors that are relevant in determining the
allowability of consultant costs, including but not limited to the nature and scope of the service
provided in relation to the service required, the necessity of contracting for the service, and the
adequacy of the contractual agreement for the service (e.g., description of the service, estimate of
time required, rate of compensation, and termination provisions).

For the $10,606 claimed for consultant costs, the Council maintained invoices from the
consultants but did not have consultant agreements. According to a Council official, the
Council’s previous executive director hired consultants without written agreements. Because
there were no consultant agreements, we could not determine the nature and scope of the services
provided, the necessity of contracting for the services, or the adequacy of the contractual
agreements. Without such documentation, we could not determine the reasonableness of the
consultant costs. Therefore, we have set aside the entire amount, $10,606, for CMS resolution.

TRAVEL

OMB Circular A-122, Attachment A, subparagraph A.2., states that to be allowable under an
award, costs must be reasonable for the performance of the award and adequately documented.
Subparagraph B.1. states: “Direct costs are those that can be identified specifically with a
particular final cost objective ….” Subparagraph C.1. states: “Indirect costs are those that have
been incurred for common or joint objectives and cannot be readily identified with a particular
final cost objective.”


                                                 7
Of the $70,012 claimed for travel costs, $44,787 was allowable. The remaining $25,225
consisted of $5,593 that we determined was unallowable and $19,632 that we set aside for CMS
resolution:

       •   The $5,593 in unallowable costs consisted of travel costs related to board of directors’
           meetings that were charged as direct rather than indirect costs ($4,838), 10 costs related to
           another contract ($666), and duplicate costs ($89). Because the minutes of the board of
           directors’ meetings indicated that the board discussed issues related to common or joint
           objectives of the organization, the $4,838 should have been charged as indirect costs.

       •   The $19,632 that we set aside was for travel costs, for which the Council did not maintain
           supporting documentation, incurred during the contract year ended June 30, 2004.

OTHER DIRECT COSTS

OMB Circular A-122, Attachment A, subparagraph A.2., states that to be allowable under an
award, costs must be reasonable for the performance of the award and adequately documented.
Subparagraph B.1. states: “Direct costs are those that can be identified specifically with a
particular final cost objective ….” Subparagraph C.1. states: “Indirect costs are those that have
been incurred for common or joint objectives and cannot be readily identified with a particular
final cost objective.”

Of the $148,851 claimed for other direct costs, 11 $95,113 was allowable. The remaining $53,738
consisted of $14,403 that we determined was unallowable and $39,335 that we set aside for CMS
resolution:

       •   The $14,403 in unallowable costs consisted of costs related to board of directors’
           meetings ($11,675) and legal fees ($285) that were charged as direct rather than indirect
           costs 12 and costs related to a canceled meeting that were refunded to the Council
           ($2,443). Because the minutes of the board of directors’ meetings indicated that the
           board discussed issues related to common or joint objectives of the organization, the
           $11,675 should have been charged as indirect costs. The legal fees of $285 were paid to
           the Council’s attorney to review an insurance policy, which is also related to common or
           joint objectives of the organization. Regarding the $2,443, the Council prepaid this
           amount to a vendor for a scheduled meeting and claimed the cost on the public voucher. 13
           The meeting was later canceled, and the vendor refunded the cost to the Council.
           However, the Council did not credit the public voucher.

10
     We included $4,838 in the indirect cost pool when calculating the revised indirect cost rates.
11
  Other direct costs included legal fees, meeting and conference expenses, postage fees, printing fees, recruiting
fees, and telephone expenses.
12
  We included the $11,675 related to the board of directors’ meetings and $285 related to legal fees in the indirect
cost pool when calculating the revised indirect cost rates.
13
  To claim costs for reimbursement, the Council submitted to CMS the Standard Form 1034, Public Voucher for
Purchases and Services Other Than Personal.


                                                             8
   •   The $39,335 that we set aside consisted of (1) direct costs claimed during the contract
       year July 1, 2003, through June 30, 2004, for which the Council did not maintain
       supporting documentation ($38,385) and (2) printing costs for which the Council did not
       maintain documentation to support the allocability of the costs to the contract ($950).

LACK OF ADEQUATE CONTROLS

The Council did not have adequate controls to ensure that the costs claimed under the contract
were allowable under the terms of the contract and pursuant to applicable Federal regulations.
The Council did not maintain supporting documentation as required by Federal regulations, and
the Council’s employees had a limited understanding of cost allocation. For example, the person
who was responsible for the Council’s accounting was not familiar with the classification of
certain costs as direct or indirect costs. Further, the Council did not have policies and procedures
for documenting contractual agreements for consultant services. Council officials stated that
many of the Council’s consultants had provided services to the Council for many years and that
the Council’s former executive director handled the procurement of consultant services during
our audit period.

RECOMMENDATIONS

We recommend that the Council:

   •   refund to the Federal Government $19,996 for unallowable travel and other direct costs,

   •   work with CMS to determine the allowability of $2,251,428 that we set aside and refund
       to the Federal Government any amount that is determined to be unallowable, and

   •   strengthen its controls to account for costs claimed under Federal contracts.

AUDITEE COMMENTS

In its written comments on our draft report, the Council concurred with our first and second
recommendations and provided information on actions that it had taken or planned to take to
address the third recommendation. The Council’s comments are included in their entirety as
Appendix B.

                                      OTHER MATTERS

REQUIRED ANNUAL SINGLE AUDIT

OMB Circular A-133 (Audits of States, Local Governments, and Non-Profit Organizations),
subpart B, §__200(a), states: “Non-Federal entities that expend $300,000 ($500,000 for fiscal
years ending after December 31, 2003) or more in a year in Federal awards shall have a single or
program-specific audit conducted for that year ….”




                                                 9
OMB Circular A-133, subpart E, §__505, states that the auditor’s report must identify that the
audit was conducted in accordance with this part and include a report on internal controls related
to financial statements and major programs. This report must describe the scope of testing of
internal controls and the results of the tests, and, where applicable, refer to the separate schedule
of findings and questioned costs described in paragraph (d) of this section.

The Council did not have single audits conducted for each year of our audit period, even though
it expended more than $500,000 in Federal awards in each of those years. The Council had its
financial statements audited by an independent auditor, but the audit report did not identify that
the audit was conducted in accordance with OMB Circular A-133. Further, the audit report did
not include a report on the internal controls related to financial statements and major programs as
required by Federal regulations.

PROCUREMENT POLICIES AND PROCEDURES

OMB Circular A-110 (Uniform Administrative Requirements for Grants and Agreements With
Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations), section __.43,
requires that all procurement transactions be conducted in a manner to provide open and free
competition. Section __.44(a) requires that all recipients establish written procurement
procedures. Section __.45 states: “Some form of cost or price analysis shall be made and
documented in the procurement files in connection with every procurement action.”

The Council did not establish written procurement procedures and did not have documentation to
support that the procurement of consultants provided open and free competition or that a cost or
price analysis was performed in procuring consultants.




                                                 10
APPENDIXES
APPENDIX A: SCHEDULE OF COSTS CLAIMED AND RESULTS OF AUDIT
      FOR THE PERIOD JULY 1, 2003, THROUGH JUNE 30, 2006



   Element of Cost     Claimed      Allowable    Unallowable   Set Aside

  Salaries and Wages   $1,070,573      $90,336           $0     $980,237

  Fringe Benefits        490,609        34,819            0       455,790

  Indirect Costs         831,670        85,842            0       745,828

  Consultants             10,606            0             0        10,606

  Equipment                 1,365        1,365            0                0

  Travel                  70,012        44,787         5,593       19,632

  Other Direct Costs     148,851        95,113        14,403       39,335


   Total Costs         $2,623,686     $352,262       $19,996   $2,251,428
                                                                                                                     Page 1 of3


                        APPENDIX B: AUDITEE COMMENTS



                Southern Califo rnia
                Renal Disease Council
               ESRD NE TW ORK 18
                                       INCORPOI.... T E~
                                                                                                                     •


January 10, 2012



Lori A. Ahlstrand
Regional Inspector General for Audit Services
Office of Audit Services, Region IX
90- 7th Street, Suite 3-650
San Francisco, CA. 94103

Re: Report Number: A-09-10-02045

Dear Ms. Ahlstrand:

Please find this letter in response to the U.S. Department of Health and Human Services, Office of Inspector
General (OIG), and draft report entitled Southern California Renal Disease, Inc. Claimed and Unallmvable and
Unsupported Costs Under Medicare Contract Number 500-03-NW18 dated December 13, 2011.

According to the Summary of Finding, your audit team reviewed $2,623,686 of costs of which $352,262 were
allmvable, allocable and reasonable under the terms of the contract; The remaining $2,271,424 consisted of
$19 ,996 in travel costs and other direct cost that were determined to be unallowable; and $2,251,428 that your
audit team set aside for CMS resolution.

The reconnnendations issued by the audit team are as fo11O\vs:
    • 	 Refund to the Federal Govennnent $19,996 for unallO\vable travel and other direct costs,
    • 	 Work "With CMS to determine the allO\vability of $2,251 ,428 of the set aside funds and refund the amount
        determined by CM S to be unallO\vable,
    • 	 Strengthen its controls for costs claimed under Federal contracts.

Southern California Renal Disease Council, Inc. is presenting the follo"Wing statements of concurrence for the
above reconnnendations made by the OIG.
   • 	 SCRDC, Inc. concurs "With the reconnnendation of refunding the $19,996 to CMS for unallowable travel
        and other direct costs.
   • 	 SCRDC, Inc. concurs 'Nith the reconnnendation of working "With CMS to determine the allowability of the
        set aside amount of$2,251 ,428.
   • 	 SCRDC , Inc. has begun implementing policies and procedures that strengthen and improve the control for
        costs claimed under Federal contracts.


                                                           :Mission Statement
                       To p rCNiJe leadership and =istwre to renal dialys is and transplantftcilities in a manner
                        that supports continualS imprCNement in JXl1ient ca re, w1comes, safety and satisf oction.

                            6255 Sllllset Boulevard· Suite 2211 • Los Angeles· California· 90028
                       (323) 962-2020 • (800) 637-4767 • (323) 962-2891/Fax· www.esrcinetwOIx18.org
                                                                                                                   Page2of3



                                                 ESRD NETWORK 18



Southern California Renal Disease Council appreciates the opportunity to respond to the recommendations
offered by the OIG; and would also like to include the following information:

   1. 	 The Contract Awards which were audited during this audit period were Cost Reimbursement Contracts
        rather than being a Fixed Contract.
   2. 	 The previous Executive Director during the audited contract years was replaced on December 28, 2008.
   3. 	 It has been brought to my attention that correspondence was sent to the Contracting Officer during the
        contracts: a) rates for indirect costs; b) and asking when the audit was to be scheduled. Please note that
        CMS audits for the Council had not been completed since the Contract Year 2001.
   4. 	 Current Administration has implemented policies and procedures that will bring the Council into
        compliance with the Office of Management and Budget (OMB) Circular 122-A, as well as the applicable
        sections of the Federal Acquisition Regulations (FAR). These implemented policies and procedures
        include but are not limited to:
        a. 	 Salaries and Wages
               1. 	 Employee activity reports (including timesheets) have been implemented to provide
                    documentation for charging their compensation to the award.
              11. 	 Payroll records are now maintained according to State and Federal laws.

             111. 	 Employees dealing with wages, salaries and contract awards have been given the pertinent
                    information from OMB Circular A-122 and FAR.
             IV. 	 Employee activity reports, timesheets and payroll records will be kept four years after CMS has
                    performed the final audit of contract.
        b. 	 Fringe Benefits CostlRate
               1. 	 In order to calculate the fringe rate, policies and procedures have been implemented for cost
                    contracts to utilized actual fringe costs in accordance with OMB Circular A-122 and FAR, and
                    once approved by CMS, used throughout the contract period.
              11. 	 Documents will be maintained four years after CMS has audited contract.

        c. 	 Indirect Costs
               1. 	 Policies and procedures are in place that will prevent the misallocation of indirect costs to direct
                    costs and vice versa.
              11. 	 The Council will submit an adequate [mal indirect cost rate proposal to the Contracting Officer

                    and this [mal indirect rate will be supported by adequate supporting data. This indirect rate will
                    be based on the Council's actual cost experience.
             111. 	 Documents will be maintained four years after CMS has audited contract.

        d. 	 Consultants
               1. 	 Implemented policy directed at complying with the procurement of consultants according to the

                    OMB Circular A-122 Attachment A, subparagraph A2 and Attachment B, subparagraph 37(b);
                    including creating a form for documenting the procurement of consultants and establishing a
                    consultant agreement/contract which delineates the description of services, estimate of time
                    required, rate of compensation and termination provisions.
              11. 	 Any and all consultant selection will be conducted in such a manner as to provide open and free

                    competition.
        e. 	 Travel Costs
               1. 	 The Council has implemented policies and procedures which will insure that proper allocation of
                    costs resulting from travel will be properly represented as either Direct or Indirect.




                                                        Page 2
                                                                                                             Page30f3



                                               ESRD NETWORK 18



        f. 	 Required Annual Single Audit
             I. 	  This required Single Audit was implemented by the new Executive Director in 2010 as part of the
                   increased fiscal awareness and effort to comply with contract requirements (Ol\1B Circular A­
                   133).
        g. 	 Internal Controls
              I. 	 Policies and procedures have been implemented, reviewed, or replaced to msurance strict

                   adherence to the Circular A-122 and FAR.

Thank you for allowing us to review and respond to these audit finding.

Sincerely,

IHarriet L. Edwardsl

Harriet L. Edwards, MSW/MSG
Executive Director




                                                      Page 3
